<html>
<title> - PENDING LEGISLATION</title>
<body><pre>[Senate Hearing 114-502]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-502
 
                          PENDING LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   on

S. 211                            S. 2627
S. 630                            S. 2805
S. 1007                           S. 2807
S. 1623                           S. 2923
S. 1662                           S. 2954
S. 1690                           S. 3020
S. 1696                           S. 3027
S. 1824                           S. 3028
S. 2087                           H.R. 3004/S. 2839
S. 2412                           H.R. 3036
S. 2548                           H.R. 3620
                                  H.R. 4119
 


                               __________

                             JUNE 15, 2016

                               __________
                               
                               
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              
                               
                               
                               
                               


                       Printed for the use of the
               Committee on Energy and Natural Resources             
  
               

         Available via the World Wide Web: http://www.fdsys.gov         
         
    
         
 
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 21-991                  WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     
        
         
         
         
         
         
         
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia

                     Subcommittee on National Parks

                         BILL CASSIDY, Chairman
ROB PORTMAN                          MARTIN HEINRICH
JOHN BARRASSO                        RON WYDEN
LAMAR ALEXANDER                      BERNARD SANDERS
MIKE LEE                             DEBBIE STABENOW
JOHN HOEVEN                          ANGUS S. KING, JR.
SHELLEY MOORE CAPITO                 ELIZABETH WARREN
                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
                Michelle Lane, Professional Staff Member
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                David Brooks, Democratic General Counsel
                
                
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Cassidy, Hon. Bill, Subcommittee Chairman and a U.S. Senator from 
  Louisiana......................................................     1
Heinrich, Hon. Martin, Subcommittee Ranking Member and a U.S. 
  Senator from New Mexico........................................     2
Blunt, Hon. Roy, a U.S. Senator from Missouri....................     3
Kaine, Hon. Tim, a U.S. Senator from Virginia....................     4
King, Jr., Hon. Angus S., a U.S. Senator from Maine..............    30
Cantwell, Hon. Maria, a U.S. Senator from Washington.............    31

                                WITNESS

Toothman, Dr. Stephanie, Associate Director, Cultural Resources, 
  Partnerships and Science, National Park Service, U.S. 
  Department of the Interior.....................................    32

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

9/11 Memorial:
    Letter for the Record........................................   134
9/11 Parents & Families of Firefighters and WTC Victims:
    Statement for the Record.....................................   138
9/11 Tribute Center:
    Letter for the Record........................................   139
Blunt, Hon. Roy:
    Opening Statement............................................     3
Boxer, Hon. Barbara:
    Statement for the Record.....................................   140
Burke, Michael:
    Letter for the Record........................................   142
Cain, Rosemary:
    Letter for the Record........................................   144
Cantwell, Hon. Maria:
    Opening Statement............................................    31
Cassidy, Hon. Bill:
    Opening Statement............................................     1
    ``Cooperative Federalism in Biscayne National Park'' Abstract 
      by Ryan B. Stoa............................................    99
Families of Flight 93:
    Letter for the Record........................................   145
Franken, Hon. Al:
    Statement for the Record.....................................   147
Heinrich, Hon. Martin:
    Opening Statement............................................     2
Kaine, Hon. Tim:
    Statement for the Record.....................................     4
    Jamestown 400th Commemoration Commission Act of 2000.........     7
    Omnibus Public Land Management Act of 2009 Excerpt (contains 
      the St. Augustine Commission Act)..........................    14
    Written Statement............................................    29
King, Jr., Hon. Angus S.:
    Opening Statement............................................    30
Looking for Lincoln Coalition:
    Statement for the Record.....................................   148
McCaffrey, LT/FDNY (Ret) James:
    Letter for the Record........................................   150
McNulty, Tim:
    Statement for the Record.....................................   151
Meehan, III, Thomas:
    Letter for the Record........................................   153
Muckleshoot Tribal Council:
    Letter for the Record........................................   157
National Association of Police Organizations, Inc.:
    Letter for the Record........................................   159
National Fraternal Order of Police:
    Letter for the Record........................................   160
Nee, Nancy:
    Letter for the Record........................................   161
Olympic Park Associates:
    Letter for the Record........................................   162
Pentagon Memorial Fund:
    Letter for the Record........................................   164
Reilly, Patricia:
    Letter for the Record........................................   166
Riches, Deputy Chief Jim, FDNY (Ret):
    Letter for the Record........................................   167
Sergeants Benevolent Association:
    Letter for the Record........................................   168
(The) Tulalip Tribes:
    Letter for the Record........................................   169
Tule Lake Committee:
    Letter for the Record........................................   171
Toothman, Dr. Stephanie:
    Opening Statement............................................    32
    Written Testimony............................................    35
    Responses to Questions for the Record........................    91
Voices of September 11th, et al.:
    Letter for the Record........................................   173
Winuk, Jay:
    Letter for the Record........................................   177

----------
The text for each of the bills which were addressed in this hearing can 
be found on the committee's website at: http://www.energy.senate.gov/
public/index.cfm/hearings-and-business-meetings?ID=1C31F3F6-13D2-4377-
A253-D264FA94BB16


                          PENDING LEGISLATION

                              ----------                              --
--------


                        WEDNESDAY, JUNE 15, 2016

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:35 p.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Bill Cassidy, 
Chairman of the Subcommittee, presiding.

   OPENING STATEMENT OF HON. BILL CASSIDY, U.S. SENATOR FROM 
                           LOUISIANA

    Senator Cassidy [presiding]. The Subcommittee will come to 
order.
    The 23 bills we are examining this afternoon cover a wide 
range of issues relating to the federal land administered by 
the Department of the Interior, primarily by the National Park 
Service.
    Today we will hear about legislation that includes the 
establishment of national heritage areas, new historical sites, 
boundary adjustments, grounds related to memorials and related 
issues.
    I would like to take a moment to discuss S. 2807, the 
Preserving Public Access to Public Waters Act, which I 
introduced. In the Gulf of Mexico, commercial and recreational 
fishing represent a large part of the economy. Spending on 
recreational fishing, including the multiplier effects, 
generated about $70.3 billion in economic output in 2011 alone. 
One year, $70.3 billion.
    According to NOAA in 2014, across all economic sectors of 
the marine economy, 21 million full and part-time jobs were 
filled in the Gulf states because commercial and recreational 
fishing are so important to our economy and jobs in the Gulf. 
It is vitally important that we retain access to all public 
waters.
    In the Biscayne Bay National Park a general management plan 
took over 15 years to update. Once finally released last June, 
local communities and anglers were distraught to find that the 
National Park Service chose to include a 10,502 acre reserve 
zone which severely limits access to commercial and 
recreational fishermen.
    According to NOAA, about 23 million fishing trips are taken 
each year in the Gulf of Mexico. The same report showed that in 
2014 the economic impact of recreational fishing in the Gulf of 
Mexico region exceeded $12 billion in that year alone. This is 
a substantial portion of the regional GDP.
    When access is restricted, we are not just impacting 
sportsmen and women enjoying a day at the sea. We are talking 
about moms and dads who want to take their kids fishing one day 
out of the year; commercial fishermen, who make a living on the 
Gulf, supplying restaurants and grocery stores; associated 
businesses like bait shops, charter boats and motels along the 
Gulf that are also impacted by closures. Restricted access has 
real life consequences to the enjoyment of the outdoors by 
American families and to the economy of our region.
    Although the park is part of the federal agency, fishing 
and other harvesting activities are largely governed by state 
law. This management arrangement is grandfathered under the 
state's Enabling Law and the State of Florida opposes the Park 
Service's plan to implement the marine zone.
    That is why I introduced legislation which would prevent 
the Park Service from moving forward with restricting 
recreational or commercial fishing access in state or territory 
waters controlled by the Park Service without first 
coordinating and getting approval of the state.
    I look forward to discussing S. 2807 and a number of other 
bills today. Many on our list have been passed in the House of 
Representatives. A few have been heard before in the 
Subcommittee and others have been considered in previous 
Congresses. We have several bills that include potential 
national heritage areas. Over more than 30 years Congress 
established 49 national heritage areas, and the FY'16 
appropriation for these areas was nearly $20 million.
    As Congressional interest in these areas grow, it is 
important that we continue to ensure proper oversight is 
conducted over existing and potential heritage areas. While a 
few of these bills may spark conversation, I am hoping we can 
move through the list fairly quickly.
    The purpose of this hearing is to consider the 
Administration's views on these bills and allow Committee 
members an opportunity to ask questions. We will also include 
written statements that have been sent to the Subcommittee in 
the official hearing record. Because of the large number of 
bills on today's agenda, I will not read through the list.
    We have one witness today, Dr. Stephanie Toothman, 
Associate Director of Cultural Resources, Partnerships and 
Science for the National Park Service. I want to thank Dr. 
Toothman for being here.
    Now let me turn to the Ranking Member, Senator Heinrich, 
for his remarks.

STATEMENT OF HON. MARTIN HEINRICH, U.S. SENATOR FROM NEW MEXICO

    Senator Heinrich. Thank you, Mr. Chairman.
    We have 23 bills on our agenda today which, I think, 
demonstrates how much all of our constituents care about the 
National Parks in their communities.
    In New Mexico we have 15 Park Service units, and they 
represent some of the most stunning landscapes and important 
cultural and historical places in our nation. I am proud to say 
that the President will be visiting one of those, Carlsbad 
Caverns National Park, later this week.
    I look forward to hearing about these new proposals today. 
I am particularly pleased to see the Ocmulgee re-designation 
and expansion and the accompanying special resource study of 
the Ocmulgee River Corridor which includes the Bond Swamp 
National Wildlife Refuge and two state wildlife management 
areas.
    I do have some concerns about S. 2807 which would give 
states veto authority over management of recreational and 
commercial fishing in marine national parks. I understand that 
this is intended to address the recently finalized marine 
reserve zone in Biscayne National Park in Florida and I 
certainly understand the concerns of many in Florida and the 
region about reduced access for anglers in the park, but I am 
concerned about the precedent this bill would set for giving 
states authority over public lands managed by the Federal 
Government for all Americans.
    I understand that the Florida Senators are working with the 
Florida Fish and Wildlife Conservation Commission and 
recreational fishing groups on an alternative approach to 
resolving the conflict at Biscayne without getting into the 
broader and more controversial issue of state management of 
federal public lands and waters. I look forward to working with 
the Chairman and the Florida delegation to find a solution that 
works for all parties involved.
    I also want to thank Dr. Toothman for being here today to 
talk about these bills, and I look forward to hearing her 
testimony.
    Senator Cassidy. Thank you, Senator Heinrich.
    Would you care to make a comment, Senator King?
    Senator King. My only comment was I have myself visited 
Carlsbad Caverns. I believe the bravest person in the United 
States was that 16-year-old boy who walked down into that hole 
about 100 years ago and discovered it. What an extraordinary 
place, wonderful place in your state. Thank you.
    Senator Heinrich. If you want to see the pictures from 
that, there is a book called ``Governor's Travels'' floating 
out there somewhere. [Laughter.]
    Featuring our colleague.
    Senator Cassidy. Senators Blunt and Kaine are here. Thank 
you. Welcome to the Committee.
    Senator Blunt, would you care to comment upon a bill you 
are interested in?

    STATEMENT OF HON. ROY BLUNT, U.S. SENATOR FROM MISSOURI

    Senator Blunt. Well, I would, Mr. Chairman, and thanks for 
letting me come. I am also co-sponsoring Senator Kaine's bill, 
and I am glad to be here with him as he talks about that bill 
as well.
    This proposal would designate a determined area of property 
in Ste. Genevieve, Missouri as the Ste. Genevieve National 
Historic Park.
    Ste. Genevieve was founded in 1750 by French Canadian 
settlers. St. Louis, just north of Ste. Genevieve, was founded 
about the same time by French settlers from New Orleans, Mr. 
Chairman. I was a little surprised myself to find out that the 
Ste. Genevieve French settlers came from Canada and settled 
there.
    The community today has about 4,000 residents. It is 
located 60 miles south of St. Louis. It is one of the oldest 
national historic landmark districts in the country, designated 
in 1960, to recognize the unique concentration of vertical log 
architecture. The logs were up and down, and then in 
substantial houses, plastered over the outside front.
    I am not sure if there is anything, Senator Cassidy, in New 
Orleans that mimics that architecture at all, but it is very 
unique and some of these houses date back to at least 1790. I 
think the city's architecture helps paint a rich historical 
narrative.
    One example would be in an area on South Main Street, a 
picture of how that area developed even into the 1840s where 
the last French Commandant of the town, Jean Baptiste Valle, 
lived and died in the 1840s. He had succeeded his brother 
Francois Valle, the second, who died before the transfer of 
power to the United States in 1804 and briefly to the Spanish 
before that. But after this transfer of control, Valle 
successfully transitioned to become a business leader in Ste. 
Genevieve and had a lasting impact on the economy and culture 
of Ste. Genevieve.
    It is because of this that his house, the Jean Baptiste 
Valle house, located in this cluster of historic properties on 
South Main Street, has been recognized as one of the premier 
historical properties in Ste. Genevieve and, I think, in the 
country.
    There are countless other historical properties in Ste. 
Genevieve. Legislation was passed in 2006 to begin a special 
resource study of the site, and the first public meeting 
occurred in 2009 to collect input. The draft study finally came 
out in 2015. In May the final study found that Ste. Genevieve 
is nationally significant, eligible for addition as a new unit 
of the Park Service and it recommends a number of properties be 
part of that.
    Many of us here have dealt with the Park Service over the 
years. This is one of the rare occasions when property proposed 
for inclusion in the National Park Service is received 
positively by the Park Service. They would like this to be 
transferred from the state to the Park Service. I would like to 
see that happen as well.
    Senator McCaskill and I have co-sponsored this legislation 
and hope it is favorably viewed by your Committee.
    Senator Cassidy. Thank you.
    Senator Kaine.

    STATEMENT OF HON. TIM KAINE, U.S. SENATOR FROM VIRGINIA

    Senator Kaine. Thank you, Mr. Chair and to Senators 
Heinrich and King, I appreciate this opportunity.
    I am here on S. 2548, the 400 years of African-American 
History Commission Act. I am very excited to be here, and I am 
very happy that Senator Blunt and others are co-sponsoring.
    1619 marks a very important year in this country, and 2019 
is the 400th anniversary. In 1619 the phrase in the record 
books was ``20 and odd'' in reference to the Africans who had 
been taken off a Portuguese slave ship by the English and 
brought ashore at Point Comfort, Virginia which is now Hampton, 
Virginia. The bringing of these 20 slaves to Virginia began the 
diaspora of Africans to the United States, and that population 
had swelled to nearly four million slaves by the Civil War.
    The Act before you follows a pattern and it is to have a 
commission that would plan educational materials and events to 
commemorate African contributions to our nation. The Congress 
passed a similar Commission Act to honor the English 
contributions to our society in connection with the Jamestown 
400th commemoration in 2007. Congress also passed a similar 
commission, enacted a similar commission to honor the Hispanic 
contributions to our nation in connection with the 450th 
anniversary of the settlement of St. Augustine in 1565 which we 
just celebrated last year.
    Now this is a history that is painful, that is tragic, that 
is triumphant. It is as complicated as the American story. In 
the 400 years that Africans have been in this organized way, 
beginning with the slave trade in the English colonies in the 
United States, I have analogized it to this, you can divide 400 
years into eight half centuries.
    For five of the half centuries Africans were here and held 
a slight five-eighths of our history. For two-eighths of our 
history, African slavery was ended at the end of the Civil War. 
Africans were here but were in a legal, second-class status 
where they could be completely separated in terms of public 
life, education, etcetera and that was tolerated. It has only 
been in the last one-eighth of our history of this 400 years 
that African-Americans have been accorded legal equality, 
although we know that many social disparities remain.
    But the amazing thing about that is with only one-eighth of 
this 400 years, a time period where African-Americans have been 
treated as legally equal, the contributions of Africans, people 
of African descent, to our life, business, academics, law, 
military, spirituality, culture, diplomacy, government, 
medicine, social justice and innovation have been remarkable.
    In the same way that we enacted a commission to say that 
the English roots of this country matter and are worthy of 
commemoration and celebration, in the same way that we enacted 
a commission to say that the Hispanic roots of this country 
matter and are worthy of commemoration, I hope it would be the 
will of this body to say the contributions of Africans to who 
we are as a nation matter. It would be impossible to imagine 
who we would be as a nation were it not for those 
contributions.
    My only regret is I wish I had started it sooner. The 
Jamestown commemorative effort that Congress enacted started 
seven years before 2007, and the recognition of St. Augustine 
commission was about seven or eight years before 2015. In fact, 
there is a UC on the Floor today to look at a 250th anniversary 
of the founding of the U.S. in 1776, and we are doing it ten 
years in advance of 2026.
    So I am mindful of the time. It is 2016. In order to 
appropriately plan educational events and educational 
materials, I would hope that the body could act.
    And I should stress this is a bipartisan bill in both 
houses. It has been worked on in tandem with many organizations 
including the NAACP and, importantly, the Smithsonian Museum of 
African-American history which is slated to open within the 
next year here in the capital.
    I am very, very happy to have Senator Blunt and others as 
co-sponsors, and I hope it would be the will of the Committee 
to act on this and hopefully we could then appropriately act on 
it on the Floor as well.
    Mr. Chair, if I could, I would love to introduce both the 
Jamestown Commission and the St. Augustine Commission acts into 
the record as an example of previous practice in the body with 
respect to these commissions.
    Senator Cassidy. Without objection.
    [The information referred to follows:]
    
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
       
    
    Senator Cassidy. All member's statements will be added to 
the hearing record.
    [The written statement of Senator Kaine follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Cassidy. It is now time to hear from our witness.
    Senator Heinrich. Mr. Chair, before Senator Blunt leaves I 
just want to mention that he knows my parents are constituents 
of his and I had the pleasure of visiting Ste. Genevieve with 
them when I was younger. It is truly a unique historical 
location, and I very much look forward to seeing the fruits of 
his efforts because it is a special piece of our history in 
architecture in this country.
    Senator King. Mr. Chairman, I also have a bill in this 
package. I don't know whether you want me to present it now or?
    Senator Cassidy. You can present now, if you would like, 
Senator King.

  STATEMENT OF HON. ANGUS S. KING, JR., U.S. SENATOR FROM MAINE

    Senator King. My bill is S. 3027, and it involves Acadia 
National Park in Maine.
    The history is Acadia National Park was created virtually 
at the beginning of the National Park System under a series of 
laws, I think, in 1919 and then another in 1929.
    There was concern in the community, some of the communities 
surrounding the park, about what the boundary of the park was, 
how it was going to grow, whether it was going to grow in ways 
that the communities found amicable to their interests.
    So in 1986 two of my most illustrious predecessors, Bill 
Cohen and George Mitchell, collaborated on a statute that was 
passed to establish the permanent boundary of Acadia National 
Park and it established a boundary on a map and that was the 
boundary.
    A couple of years ago a very generous donation became 
available of about 1,400 acres to the Park Service, and the 
Park Service accepted that donation under the auspices of the 
1929 Act. It is unclear, as we will hear in testimony, that the 
Park Service felt that they had the legal authority to do so. 
There are many people in Maine who do not think that they did.
    Although the communities are supportive of this donation, 
they are concerned about the precedent of this, and the lack of 
clarity of whether this donation was fully appropriate under 
the 1986 Act.
    So my bill does a couple of things. One, it clarifies the 
fact that this donation can be accepted and that this 1,441 
acres is part of the park. Number two, it re-establishes Acadia 
Park Commission and makes clear who the people are. It also 
takes care of a little piece of the land from the park that has 
been conveyed to one of the towns under a restricted covenant 
in terms of its use for a school. So it cleans up some of these 
issues.
    We have worked with various parties to try to get this 
right, but we want to continue to work with the Park Service. 
They have some questions about it, some questions about the 
specific language. But again, everybody in the region, I say 
everybody, certainly the vast majority, have indicated support 
for this conveyance that was accepted by the Park Service. But 
we also want to be consistent with this 1986 Act and have the 
boundary absolutely clear and be sure what the processes are 
going forward. So that is the nature of this bill.
    Senator Cassidy. Senator Cantwell, would you like to 
comment on your legislation?

 STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. Thank you so 
much. I thank you for holding this hearing and for including 
three bills that concern the State of Washington.
    Two of the bills would establish national heritage areas in 
our state: S. 1623, the Maritime Washington National Heritage 
Area which includes most of the coastal shoreline of the state, 
and S. 1690, the Mountains to Sound Greenway National Heritage 
Area including lands in Kittitas and King Counties extending 
from the Cascades to Puget Sound.
    The Mountains to Sound Greenway Trust has been working for 
many years with local communities and businesses and interested 
individuals to promote and conserve the basic scenic beauty of 
the Greenway and to better educate the public about the deep 
heritage and numerous opportunities for outdoor recreation. I 
do not need to go into the details, but we believe in an 
outdoor recreation economy in the State of Washington and it 
has provided great dividends, so we think enhancing some of 
those opportunities also increases that economic activity.
    Similarly, the Washington Trust for Historic Preservation 
has helped to develop the Maritime Washington National Heritage 
Area proposal that will tell the story of the culturally 
diverse maritime heritage of our state.
    I see my dear colleague from Maine who has told me he has 
been to places like Port Townsend so he understands what I am 
talking about when he talks about the maritime heritage of our 
area.
    Our state's many outdoor recreational opportunities and 
spectacular natural resources provide quality of living, 
attract businesses and help them with the outdoor economy, and 
are major economic contributors. In our state outdoor 
recreation-related consumer spending generates $22 billion a 
year, more than $7 billion in wages and salaries and 227,000 
direct jobs.
    Mr. Chairman, the Committee considering these proposals 
during the previous Congress ordered them to be favorably 
reported, and I hope that we can move again the same 
legislation the same way.
    The third bill I would like to briefly discuss, S. 3028, 
would rename the Olympic Wilderness in Olympic National Park as 
the Dan J. Evans Wilderness in honor of former Washington 
Senator and Governor, Dan Evans.
    Dan Evans served in the Senate beginning in 1983 fulfilling 
the term following the death of Senator Scoop Jackson, former 
Chair of this Committee, and he remained here until his 
retirement--but he was most popular in our state for being a 
three-term governor.
    So during his time in the Senate, Evans was a leader in the 
passage of two major wilderness bills in our state that 
together protected 2.5 million acres of wilderness, and he was 
a lead sponsor of the Washington Park Wilderness Act of 1988 
which designated more than 1.5 million acres of wilderness 
including 876,000 acres of wilderness in the Olympic National 
Park, which would be renamed by this bill.
    The seven members of the Washington Congressional 
delegation who were in office when the Olympic Wilderness bill 
was passed have sent letters expressing their strong support 
for this designation. The designation of the Daniel J. Evans 
Wilderness is a fitting tribute to a man who has done so much 
in so many areas but has also done so much to make sure that we 
have protection of our state's premier wilderness areas.
    I am pleased to join my colleague, Senator Murray, who has 
co-sponsored all three of these bills, and I hope that we will 
report them out of the Committee favorably.
    Again, thank you, Mr. Chairman.
    Senator Cassidy. All member statements will be added to the 
hearing record.
    It is now time to hear from our witness, Dr. Toothman. Dr. 
Toothman is the Associate Director for Cultural Resources, 
Partnerships and Science for the National Park Service.
    Dr. Toothman, I understand that you also coordinated with 
the BLM where necessary on some of these bills. Thank you for 
doing so.
    At the end of the testimony we will begin questions and 
your full written testimony will be made part of the official 
hearing record.
    Dr. Toothman, please proceed.

   STATEMENT OF DR. STEPHANIE TOOTHMAN, ASSOCIATE DIRECTOR, 
  CULTURAL RESOURCES, PARTNERSHIPS AND SCIENCE, NATIONAL PARK 
            SERVICE, U.S. DEPARTMENT OF THE INTERIOR

    Dr. Toothman. Thank you, Senator.
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on 23 bills on today's 
agenda. I would like to submit our full statements on each of 
these bills for the record and summarize the Department's 
views.
    Senator Cassidy. Without objection.
    Dr. Toothman. The Department supports the following bills:
    S. 2839 and H.R. 3004 which would extend the authorization 
for the Gullah/Geechee Cultural Heritage Corridor Commission;
    H.R. 3620 which would authorize a permanent program for 
local commercial vehicles using a park road in Delaware Water 
Gap National Recreation Area;
    H.R. 4119 which would authorize a land exchange at Gulf 
Islands National Seashore;
    S. 211 which would establish the Susquehanna Gateway 
National Heritage Area;
    S. 630 which would establish the Sacramento/San Joaquin 
Delta National Heritage Area;
    S. 1007 which would reflect in law the new name of a 
privately held building within Dayton Aviation Heritage 
National Historical Park;
    S. 1623 which would establish the Maritime Washington 
National Heritage Area;
    S. 1690 which would establish the Mountains to Sound 
Greenway National Heritage Area;
    S. 1696 and H.R. 482 which would re-designate the Ocmulgee, 
gee, I think it's Ocmulgee, National Monument, adjust the 
park's boundary and authorize the study of additional resources 
in the vicinity of the park;
    S. 1824 which would authorize a National Heritage Area 
study for the Finger Lakes region;
    S. 2087 which would modify the boundary of Fort Scott 
National Historical Site;
    S. 2412 which would establish the Tule Lake National 
Historic Site as a stand alone unit of the National Park 
Service;
    S. 2548 which would establish a commission on 400 years of 
African-American history;
    S. 2627 which would authorize a boundary adjustment for 
Mojave National Preserve;
    S. 2805 which would modify the boundaries of Voyageurs 
National Park;
    S. 2954 which would establish Ste. Genevieve National 
Historical Site;
    S. 3020 which would adjust the boundary of Florissant 
Fossil Beds National Monument; and
    S. 3028 which would designate Olympic Wilderness as the 
Daniel J. Evans Wilderness.
    The reasons for the support of these bills are explained in 
our full statements.
    For several of the bills we are requesting amendments, and 
we would be happy to work with the Committee on drafting them.
    The Department would support, if amended, S. 3027 which 
would modify the boundary of Acadia National Park. We would 
recommend language confirming the boundary includes Schoodic 
Peninsula addition, providing for minor boundary adjustment 
authority and adding conditions to deed restrictions to the 
deed restriction release.
    The Department cannot support, unless amended, S. 2923 
which would re-designate Saint-Gaudens National Historic Site 
as the Saint-Gaudens National Park for the Arts. The National 
Park Service is trying to avoid the further proliferation of 
non-standard designations in order to bring more consistency to 
national park names. We could, however, support re-designating 
the site as a national historical park.
    The Department recommends that the Committee defer action 
on S. 1662 which adds communities to the Lincoln National 
Heritage Area until the National Park Service can determine the 
appropriateness of the proposed expansion.
    The Department strongly opposes S. 2807 which would require 
state approval before the National Park Service restricts 
access for recreational and commercial fishing. This bill is 
inconsistent with the National Park Service mandate under our 
Organic Act to protect natural resources. In addition, we 
believe that existing policies calling for cooperation and 
consultation between the Park Service and states on management 
activities related to fish and wildlife resources already 
provides a strong, collaborative and effective framework for 
managing those resources.
    The Department strongly opposes H.R. 3036 which would 
designate the National September 11th Memorial in New York City 
as a National Memorial. This bill authorizes federal funding 
for the memorial but no federal role in administering, 
interpreting or preserving the resources of the memorial.
    Mr. Chairman, this concludes my statement. I would be 
pleased to answer any questions you may have.
    [The prepared statement of Dr. Toothman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Senator Cassidy. Thank you, Dr. Toothman, for your 
testimony. In the time remaining we will begin with questions.
    In your testimony as regards S. 2807 you, I think, said you 
strongly oppose and you cited the Organic Act which has, I 
gather, two central pillars to conserve and to enjoy.
    Dr. Toothman. Absolutely.
    Senator Cassidy. The Park Service has a mission to preserve 
places in their natural environment. How does the Park Service 
balance the decision to make seasonal closures or use bag and 
size limits for fishing with marine reserve zones?
    Dr. Toothman. I'm not sure I'm fully qualified to respond 
to that. I'd be glad to get you a more complete answer from our 
natural resources personnel, but we do try to balance in 
establishing those zones based on science and consultation with 
the many constituencies that are interested in the interest of 
making sure that those resources are available for the long 
run.
    Senator Cassidy. Inherent in that is that what might apply 
to one area would not necessarily apply to another, the science 
would change? It would be different?
    Dr. Toothman. That's true and that's one of our concerns 
with this bill in that it has potential application to more 
than 80 different coastal parks, and the logistics of 
collaborating with all of those states already are substantial.
    And so, we believe that in addition to maintaining the 
integrity of our responsibilities under the Organic Act that 
that tremendous variety would create some real issues in terms 
of being able to adopt to all of them. But we do tend--we do 
have a strong policy that encourages collaboration and 
consultation with our state and local partners.
    Senator Cassidy. I can see it being consultation and 
collaboration, but ultimately if you say so, it happens as 
regards much for adding the state as an entity with which to 
deal should be minimized.
    Does the National Park Service, and you may or may not know 
this, look at fish aggregations solely within the park or does 
it evaluate the health of a population based upon the larger 
region which may expand beyond a particular park?
    Dr. Toothman. Our primary responsibilities are within the 
park boundaries, but the science would mandate that we look in 
terms of the larger area and which might be influenced by those 
decisions.
    Senator Cassidy. Now what is the role the state fish and 
wildlife agency plays in the analysis?
    Dr. Toothman. Well obviously, I'm sorry, I shouldn't say 
obviously. We look to our state partners to help support the 
science in terms of bringing the information that they have 
about the larger area in which they are managing, integrates 
with our responsibility.
    Senator Cassidy. But I gather that the state said, listen, 
based upon our data there is no reason to have a marine reserve 
or restricted fishing. Nonetheless, if you felt otherwise you 
would rule otherwise, I gather that.
    Dr. Toothman. Our concerns with this bill is that 
ultimately we need to act in terms of our best judgement on 
what it takes to preserve the resource. Again, taking into 
account the information we receive from our state partners.
    We do have experience in other resources. The one at Dry 
Tortugas is a good example in which we worked with numerous 
partners to set aside a reserve there. And the results have 
been very promising in terms of the increases in size, the 
number of the populations.
    Senator Cassidy. Now you do have co-management arrangements 
in the Great Lakes, I gather, with state, tribal and federal 
agencies, and NOAA looks at the share to determine catch 
shares, etcetera, but there is a Great Lakes Fisheries 
Commission. It seems almost inherent in that that some of your 
authority is ceded to these non-federal partners if it is co-
managed.
    Dr. Toothman. Sir, I'm not able to respond to that 
particular co-management responsibility, but we would be glad 
to respond to it in writing as a follow up.
    Senator Cassidy. It also seems as if the state wildlife and 
fisheries would feel differently than you and I gather also the 
stakeholders, the recreational and commercial fishermen in the 
area affected, disagree with you. These are folks with a vested 
interest in maintaining the productivity of the population of 
fish within these areas.
    Again, I am a little struck that if you ought to decide 
differently these stakeholders are effectively ruled out; that 
does seem a little preemptory. I do not have as much faith in 
the Federal Government to be as unbiased on these decisions as 
I would those who are local. That is just, kind of, my 
observation after 58 years of living.
    But anyway, without the cooperation of the state how would 
the National Park Service enforce the marine reserve? Is there 
anything contingent upon the state cooperating?
    Dr. Toothman. Each situation varies, but we certainly try 
to work very closely with the various enforcement officials in 
both state and local entities. But we also have our own 
enforcement capability.
    Senator Cassidy. Thank you, I certainly went over.
    Let me stop and turn to my colleagues. There will be a 
second round.
    Senator Heinrich.
    Senator Heinrich. Dr. Toothman, I understand that Congress 
authorized commissions to commemorate anniversaries of the 
arrival of English colonists at Jamestown and Spanish explorers 
in St. Augustine, similar to Senator Kaine's proposal for a 
commission commemorating the arrival of the first African 
slaves at Point Comfort, Virginia and the following 400 years 
of African-American history. Was the Park Service involved in 
those previous commissions and what kinds of events and 
programs were implemented by those commissions?
    Dr. Toothman. We have been involved in terms of a 
supporting role. And we--but I would have to get back to you in 
greater detail unless maybe? Yeah, we'll have to get back to 
you. And I know we were involved in both St. Augustine and 
Jamestown.
    Senator Heinrich. If you could get back to us.
    Dr. Toothman. But we can get back to you.
    Senator Heinrich. In writing.
    Dr. Toothman. Yes.
    Senator Heinrich. Giving what that looked like in terms of 
structure, that would be helpful.
    [The materials had not been submitted at the time of 
publication. Once the committee receives them, they will be 
included in the committee files.]
    Senator Heinrich. You also testified in support of H.R. 
4119 which authorizes a land exchange between the Park Service 
and the Veterans of Foreign Wars Post 5699. That involves two 
small parcels.
    Normally when Congress authorizes a land exchange, language 
is included requiring that the values of the lands to be 
exchanged must be equal, with the value of the lands determined 
by appraisals, as you know. In this case the bill deems the 
values of the two parcels to be equal. Do you have any sense of 
what the actual market value of the two parcels to be exchanged 
are? I am just curious why the Park Service is not recommending 
the standard language requiring an equal value exchange and the 
use of an appraisal?
    Dr. Toothman. I know we posed that question to our regional 
counterparts and the response that we received was that the two 
parcels are almost virtually adjacent. They're definitely 
within the same framework in terms of evaluation.
    And so the--based on that information, based on the fact 
that in the exchange we will receive a half acre more than we 
will be transferring and that the VFW will be paying all of the 
costs for the transfer, that they came to the conclusion that 
it would be of roughly equal value.
    Senator Heinrich. Okay.
    Lastly I wanted to ask a question regarding Biscayne Bay.
    How many similar situations are there where commercial 
fishing is actually allowed in a National Park unit? That is 
not something you typically associate with a park and its 
management and is sometimes a difficult thing to reconcile with 
the direction in the Organic Act. Is this analogous to other 
units in the Park Service management family?
    Dr. Toothman. I was advised that a number of our coastal 
parks could be affected by this law but we would have to get 
back to you with specific parks that have that crossover.
    Senator Heinrich. So you are not aware, off the top of your 
head?
    Dr. Toothman. No.
    Senator Heinrich. Of other units where there it is 
similarly?
    Dr. Toothman. Don Hellmann advises me that we have a long 
list, but I do not have that in front of me.
    Senator Heinrich. And it----
    Dr. Toothman. Unless it's in--is that in my book?
    If you could give me a minute?
    Senator Heinrich. Sure.
    Dr. Toothman. I'll go back to that. This was a lot of paper 
here.
    Senator Heinrich. I can give you a minute and 17 seconds. 
[Laughter.]
    Dr. Toothman. Okay.
    We have a list, a spreadsheet that we can share with you 
that covers most regions with coastal land that's three pages 
long and we'll provide that for the record.
    Senator Heinrich. That would be helpful.
    In particular I am curious how many of those units also, if 
there is some sort of allowance for commercial fishing as 
opposed to recreational fishing?
    Dr. Toothman. We'll take that to the next step in terms of 
the spreadsheet and get you that information.
    [The materials had not been submitted at the time of 
publication. Once the committee receives them, they will be 
included in the committee files.]
    Senator Heinrich. Finally, the primary species of concern 
with Biscayne Bay, is it red fish and grouper that is of 
concern or are there other species as well?
    Dr. Toothman. I apologize again, this is outside of my area 
of expertise and I haven't been provided with that, so we will 
have to get you that information as well.
    Senator Heinrich. Thank you.
    Thank you very much.
    [The materials had not been submitted at the time of 
publication. Once the committee receives them, they will be 
included in the committee files.]
    Senator Cassidy. Senator King.
    Senator King. Thank you.
    First I want to thank you for your testimony on S. 3027. It 
seems to me that there are three central points.
    One is that the confirmation of the conveyance of the 
parcel of the Schoodic parcel may create unintended 
consequences given the different, that something had happened 
in between the development of the park, of the campground for 
example. Clearly we want to work on that so just to be sure 
there is no inadvertent legal issue created.
    Dr. Toothman. Thank you.
    Senator King. Secondly, I understand the provision that you 
are suggesting that there be a, kind of, diminimus transfer 
authority. I certainly want to work with you on that, although 
relatively modest can mean a lot of things. I think we are 
really going to have to work on this because again, the 
fundamental intent of the 1986 Act was this is the boundary.
    Dr. Toothman. Right.
    Senator King. And to the extent, if we are going to discuss 
limitations, I do not want the Swiss to eat the cheese. I want 
to be sure that we are respecting the integrity of that Act. So 
clearly we want to discuss it, but I hope you will have your 
counsel talk about how it can be limited in such a way as to 
reassure us that it is not reopening a, kind of, open ended 
acquisition process.
    Dr. Toothman. Sir, many of our parks do have that. We can 
provide you with examples of what that looks like and what the 
boundaries are.
    Senator King. Yes, it would be helpful for the language 
that you suggest and also examples of what we are talking 
about.
    Dr. Toothman. Yes.
    Senator King. If we are talking about a parking lot or a 
piece of abutting land or something, but if we're talking, you 
know, again, relatively modest can be a lot of land.
    Finally, the question about the transfer to the Town of 
Tremont. Clearly we want to work with you on that. We are very 
comfortable about public ownership, recreational, educational, 
adversely impact part resources and values, again, as a, kind 
of, all-purpose term. We do not want that to the exception to 
eat up the rule.
    Clearly we look forward to working with you on this and 
hope that we can resolve it promptly. We would like to get this 
taken care of in this session of Congress.
    I appreciate your willingness to take this issue seriously 
and to help us to find solutions.
    Dr. Toothman. And we look forward to working with you to 
make sure this is all straightened out and ready to go.
    Senator King. Good, thank you.
    I have stayed in that campground, so I want it resolved 
too. [Laughter.]
    Senator Cassidy. We will now go to a second round which may 
just be me. [Laughter.]
    Let's talk about H.R. 3036.
    Staff has given me some material and I have your testimony 
so the comments and questions will be, kind of, an amalgamation 
of the two.
    I think it goes without saying that September 11th is very 
emotional for all of us, particularly for New Yorkers, but I 
would say also next most particularly, all Americans. I met 
with some of the folks who are principle in this and they 
mentioned the security costs associated with visits by Heads of 
State, the President and the Pope, etcetera, so I also 
understand that.
    In your testimony, however, you point out that this is a 
competitive grant program to give an unspecified amount each 
fiscal year. My staff says the CBO has estimated this could be 
as much as $25 million a year, but that no other organization 
would be eligible except for the National September 11th 
Memorial Museum at the World Trade Center. Is that correct? 
This would be the only organization that could compete for a 
competitive grant?
    Dr. Toothman. That's our understanding, and it's reaffirmed 
by a letter from our--one of the supporting groups for Flight 
93, who also have taken a look at it and felt that only the 9/
11 Memorial Group would be eligible.
    Senator Cassidy. Okay, and it looks like an earmark then. I 
mean, I don't know if you can comment on that, but if it's----
    Dr. Toothman. I can't comment but----
    Senator Cassidy. Yes. It looks like, etcetera.
    Now I gather it is for operation and maintenance of sorts 
or at least a component of it. My staff has given me some data 
but I would like your impression first. The degree to which you 
have financial data of the 9/11 Memorial Museum at the World 
Trade Center Foundation, their filings, as regards how much 
they will receive and how much they put out in O and M. Do you 
have any understanding of that?
    Dr. Toothman. We don't have an analysis of that that I'm 
aware of.
    Senator Cassidy. Okay.
    Dr. Toothman. Our concern is that we have no role in 
managing that memorial, and so that is a concern to us. So we 
would have no oversight or other role in determining those 
costs.
    Senator Cassidy. Are there any other circumstances or a 
park or you name it where this amount of money, a significant 
amount of money, would be given the order of magnitude, $15 
million, $25 million, whatever, and the National Park Service 
would not have a role in administration?
    Dr. Toothman. Not at this time.
    Senator Cassidy. How many programs do you all administer?
    Dr. Toothman. Well, we administer 411 units. We administer 
at least 30 programs that support partners in various 
activities from documenting historic places to providing for 
administering grants to acquire recreational lands.
    Senator Cassidy. Now if this money is allocated, do you 
anticipate receiving more money next year or would this, if you 
will, cannibalize funding for these other programs?
    Dr. Toothman. Without an additional specific appropriation, 
it would have to reduce what's available to our other programs 
and parks.
    Senator Cassidy. Thank you.
    My staff has given me something which, again, I suspect the 
backers of this bill may find differently, but they base this 
upon the IRS Form 990 which is publicly available. They 
estimate the amount spent on operations and maintenance as well 
as security is approximately $27, $28 million and contributions 
from museum admissions and membership in the same year was 
roughly $42 million with an additional $87 million in 
contributions. So just to point that out, it does seem as if 
what they are receiving is adequate for O and M, but again, I 
am sure there is another part of that story.
    Okay, thank you.
    Let me ask you a couple other things. On the boundary 
adjustments, seven of these bills pertain to this. How would 
these proposed boundary modifications impact individual park 
budgets including acquisition cost?
    Dr. Toothman. In virtually all of them, except for Ocmulgee 
which has a fairly significant addition of land so there would 
be some additional operation cost if all of that land came 
onboard.
    The fairly minor adjustments, so at Florissant Fossil Beds, 
for example, that's about the--that's a small acreage, I 
believe it's under 20, but I'd have to double check that. It 
has the advantage of being immediately adjacent, being pretty 
much open, undeveloped land. And it would provide additional, 
much needed, access for wildland firefighting. So that would be 
virtually no impact.
    I'm just looking at some of the other ones. Fort Scott 
National Historic Site boundary, that includes three structures 
plus a block house. In that case, again, there are 
administrative uses that would take pressure off current 
facilities within the site, and so the costs are believed to be 
minimal in terms of bringing those on.
    So, again, the Ocmulgee, Ocmulgee, I'm sorry for that one, 
that's the only one. And again, the costs are fairly modest, 
maybe, just a couple of additional FTEs.
    Senator Cassidy. Okay.
    Five of the bills we are hearing today would designate or 
provide for feasibility studies for National Heritage Areas. 
Last year Congress gave $19.8 million for these areas according 
to CRS.
    How do you consider funding for these heritage areas in 
light of the maintenance backlog that currently exists within 
the National Park Service?
    Dr. Toothman. Well, while all the funding comes under your 
ceiling, they are coming from two different funding streams. So 
maintenance for the National Park Service is coming out of the 
operations of the National Park Service and the heritage areas 
is coming out of the National Recreation and Preservation 
budget.
    So other than that more general ceiling that the Committee 
works under, it's not a direct one for one comparison.
    Senator Cassidy. Gotcha, okay.
    How much of this land is privately owned and have any of 
the land owners objected to these proposals?
    Dr. Toothman. Under the provisions of virtually all of 
these legislations, no land owner would be included without 
their consent and these are collaborative ventures that don't 
include zoning or other types of management. They're more 
focused on promoting heritage tourism and preservation of 
natural and cultural resources, so there's no oversight or 
ability to directly effect of a private property owner.
    Senator Cassidy. Okay.
    Senator Heinrich.
    Senator Heinrich. Yes, I just wanted to quickly mention 
with regard to S. 2807 which we will look forward to working 
with you and then also the Florida delegation on.
    I think in just quickly reading through the entire written 
record from the Park Service, I think one of the challenges 
here is that we have a management disagreement at Biscayne Bay 
as to what the proper solution is. But the proposed solution 
actually impacts the entire Service including Glacier Bay and 
Padre Island and Dry Tortugas and other places where we do not 
have a problem. I think that may help us to hone our solution a 
little bit more.
    Senator Cassidy. Okay.
    Thank you, Dr. Toothman, for your testimony.
    If there are no other questions, members may also submit 
follow up questions for the record.
    Senator Cassidy. The hearing record will be open for two 
weeks.
    Again, I thank, Dr. Toothman, for her time and testimony.
    The hearing is adjourned.
    [Whereupon, at 3:25 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------     
                              
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              
                              





</pre></body></html>
